          Audits




Office of Inspector General
            United State s
  International Trade Commission




       Evaluation of the U.S.
       International Trade
     Commission's Information
        Security Program
                                   September 10, 2001




            (A
           i·f)
INSPECfOR GENERAL




UNITED STATES INTERNATIONAL TRADE COMMISSION

                           WASHINGTON, D.C. 20436


 September 10, 2001

 TO:     THE COMMISSION

 We hereby submit Audit Report No. OIG-AR-02-01, Evaluation of the U.S.
 International Trade Commission's Information Security Program, for the
 Commission's implementation of our recommendations. In accordance with the
 Government Information Security Reform Act (GISRA), and Office of
 Management and Budget (OMB) Memorandum M-01-24, dated June 22, 2001,
 this report supports the Office of Inspector General's independent evaluation of
 the Commission's information security program.

 Although the report identified a number of deficiencies and made 19
 recommendations, the Commission has taken important actions recently to
 improve information security. These include appointing an Information Security
 (INFOSEC) Officer, initiating annual security awareness training, and issuing
 ITC Directive 1340. Further, the Office of Information Services has designed and
 implemented firewall controls to prevent and detect external intrusion attempts
 to the network. Finally, the Office of Administration and the Office of the
 Secretary have established and implemented control structures for their systems.

  I want to acknowledge the cooperation and courtesy shown to the Office of
  Inspector General by all Office Directors, and in particular the Director, Office
  of Information Services, and his staff, during the conduct of this audit.



                                                               Kenneth F. Clarke
                                                               Inspector General




  This is an excerpt of the official audit report issued to the Commission.
  Subsequent distribution of the complete report is limited due to the sensitive
  nature of the information contained in it.
